4

>^KAW5^_^ufifieArtEXiXiRT-^-J^MUiCsl/HURTJ. Dtew*. cp

--APPENDIX.-A.

vOitA

*4

Cite as 2020 Ark. 377

SUPREME COURT OF ARKANSAS
no.

CV-20-344

ROY RUSSELL, SR.

Opinion Delivered: November 19, 2020
APPELLANT

V.
DEXTER PAYNE, DIRECTOR,
ARKANSAS DEPARTMENT OF
CORRECTION

PRO SE APPEAL FROM THE
CHICOT COUNTY CIRCUIT
COURT
[NO. 09CV-20-32-3]
HONORABLE ROBERT BYNUM
GIBSON ,JR., JUDGE

APPELLEE
AFFIRMED.

RHONDA K. WOOD, Associate Justice
Roy Russell, Sr. appeals the denial of his pro se petition for writ of habeas corpus.
Russell challenges a chief justice’s authority to appoint a special judge as a jurisdictional
barrier to his conviction. We find no error and affirm.
I. Background
In 2013, two days before Russell’s scheduled jury trial, Chief Justice Hannah
appointed the Honorable Ted Capeheart, retired circuit judge, to preside in the place of an
elected circuit court judge who had suddenly fallen ill. The appointment order stated that
Judge Capeheart was to preside on August 7 and 8 of 2013. A jury found Russell guilty of
battery in the second degree and of being a felon in possession of a firearm and sentenced
him as a habitual offender to serve consecutive sentences of 180 months’ imprisonment and
480 months’ imprisonment, respectively, for a total of 660 months. The first sentencing
order entered in the case stated each offense and sentence, but mistakenly stated that the

aggregate term was 480 months, rather than 660 months. Judge Capeheart signed an
amended sentencing order on August 14, 2013, stating that the aggregate sentence was 660
months’ imprisonment.
Twice, Russell has fded habeas petitions alleging Judge Capeheart lacked authority
to preside over his case and enter the amended sentencing order. This court rejected both.
See Russell v. Kelley, 2019 Ark. 278, 585 S.W.3d 658; Russell v. Kelley, 2016 Ark. 224. Now,
Russell contests Chief Justice Hannah’s authority to appoint Judge Capeheart. Again, we
affirm.
II. Grounds for Issuance of the Writ
This court will uphold a circuit court’s decision on a petition for writ of habeas
corpus unless it is clearly erroneous. Hobbs v. Gordon, 2014 Ark. 225, 434 S.W.3d 364. A
decision is clearly erroneous when, although there is evidence to support it, the appellate
court, after reviewing the entire evidence, is left with the definite and firm conviction that
a mistake has been made. Id.
A writ of habeas corpus is proper when a judgment and commitment order is facially
invalid or when a circuit court lacks jurisdiction over the case. Foreman v. State, 2019 Ark.
108, 571 S.W.3d 484. Subject-matter jurisdiction is the power of the court to hear and
determine the subject in controversy. Baker v. Norris, 369 Ark. 405, 255 S.W.3d 466 (2007).
When the trial court has both personal jurisdiction over the appellant and jurisdiction over
the subject matter, the court can adjudicate the case. Johnson v. State, 298 Ark. 479, 769
S.W.2d 3 (1989).

2

V

*

III. Claim for Relief
Russell contends that the ChiefJustice did not have jurisdiction to appoint a special
judge in his criminal trial until every circuit judge in the judicial district had recused. He
alleges this did not occur. Therefore, Judge Capeheart was without jurisdiction, and he is
being illegally detained.
We recently rejected Russell’s precise argument. See Dawson v. Stoner-Sellers, 2019
Ark. 410, 591 S.W.3d 299. In Dawson, we explained that Amendment 80 of the Arkansas
Constitution provides that the Chief Justice shall appoint special judges according to the
rules prescribed by the Supreme Court. Id.; Ark. Const, amend. 80 § 13(C). And section
(II) of Administrative Order Number 16 provides that the ChiefJustice has the authority to
assign a special judge if the Chief Justice determines an “other need” for the appointment
of a special judge. Id. at 6—7, 591 S.W.3d at 304. Here, because the record reflects the sitting
judge had a sudden illness, an “other need” existed for an appointment of a special judge.
Therefore, the Chief Justice had the constitutional authority to appoint Judge Capeheart,
who consequently had the jurisdiction and authority to preside over Russell’s case.
Affirmed.
Hart, J., dissents.
JOSEPHINE Linker Hart, Justice, dissenting. The majority’s reliance on
Dawson v. Stoner-Sellers, 2019 Ark. 410, 591 S.W.3d 299 is misplaced. In Dawson, this court
conflated the Chief Justice’s authority to determine whether there is “other need” for a
special circuit judge with the existence of the proper circumstances justifying that
determination. Administrative Order No. 16(III) (A) sets forth as a basic requirement for

3

v

f*

appointing a special circuit judge that “all the judges in the circuit have recused.” The record
is silent on this fundamental requirement.
As I stated in Dawson, the ChiefJustice’s authority to appoint a special judge arises
from the supreme court’s general superintending authority over the inferior courts of this
state. Ark. Const, amend. 80, § 4. The power is vested in the court as a whole; the Chief
Justice only “administers” this authority. Ark. Const, amend. 80, § 4. The Chief Justice’s
authority is given to him by the court via our standing administrative order.
As in Dawson, it is not disputed that there is no proof that all of the judges in the
judicial district recused. Accordingly, the Chiefjustice did not have the authority to appoint
retired judge Ted Capeheart to try the case. When a circuit judge elected by the people of
that judicial district is available, he or she must serve before another judge may be appointed.
Smith v. Wright, 2015 Ark. 189, 461 S.W.3d 687.
Jurisdiction is the power or authority of the court to act. W. Memphis Sch. Dist. v.
Circuit Court of Crittenden Cty., 316 Ark. 290, 871 S.W.2d 368 (1994). When a circuit court
acts without jurisdiction, its orders and judgments are void. Rose v. Harbor E., Inc., 2013
Ark. 496, 430 S.W.3d 773. Because the Chiefjustice failed to comply with the Arkansas
Constitution and Administrative Order No. 16, appointment of a retired judge was
unlawful, and Mr. Capeheart had no authority to hear this case.
This appointment fails to comply with the clear language of the grant of authority
requiring all judges in the district to recuse or for other reasons be unable to sit before the
Chiefjustice can appoint. The “inability to serve” is based on the reasons provided by the
elected judge whose job is to sit on these cases. Thus, the chiefjustice lacks authority to

4

A

<

i

*-

appoint a special judge unless and until all the circuit judges in the district have articulated
their inability to serve. A special judge appointed by the chief justice before that point in
time is without proper jurisdiction to act.
I respectfully dissent.
Roy Russell, Sr., pro se appellant.
Leslie Rutledge, Att’y Gen., by: Rebecca Kane, Ass’t Att’y Gen., for appellee.

I

\

5

f

t

*'

Qpcii)Ix£xmku£&^^

-APP£>©<*-B

Q$&C ■

FILED

X

'L

2028 APR-6 AH 9= 40

i

JOSEPHINE GRIFFIN
CHICOT CO. CIRCUIT CLERK
LO.p.

IN THE CIRCUIT COURT OF CHICOT COUNTY, ARKANSAS
CIVIL DIVISION
PETITIONER

ROY LEE RUSSELL
NO. CV-2020-32-3

VS.

DEXTER PAYNE, ADC DIRECTOR

RESPONDENT

ORDER GRANTING LEAVE TO FILE HABEAS PETITION
AND ORDER DENYING HABEAS PETITION
The Clerk is directed to file petitioner’s habeas petition without requiring the
payment of costs or fees.
This is petitioner’s third habeas petition challenging the jurisdiction of the Desha
Circuit Court to sentence him. Honorable Ted Capeheart presided by assignment of
Chief Justice Jim Hannah.
Petitioner challenges the Chief Justice’s authority to make that assignment. But a
-A

1-

habeas petitioner must challen ge the lack of jurisdiction which appear on the face of the
Judgment and Commitment. This petition does not, so the petition is dismissed.
The Clerk is directed to provide a copy of this order to all parties.
IT IS SO ORDERED.

ROBERT BYNUM'&IBSON, JR.
CIRCUIT JUDGE
DATE: April 2, 2020

i

